Office of the Prosecuting Attorney

DANIEL T. SATTERBERG

APPELLATE UNIT
W554 King County Courthouse
516 Third Avenue
Seattle, WA 98104-2385
(206) 477-9497 FAX (206) 259-2795

Prosecuting Attorney

24 September 2020
Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington D.C. 20543-0001
Re: Davis v. Washington, No. 20-5379 – Extension Request
Dear Mr. Harris:
On August 31, 2020, this Court requested that I respond by September 30, 2020 to the petition
for a writ of certiorari in the above case. Based on pre-existing deadlines, including a state
supreme court argument today, September 24th, I asked for an additional 14 days to respond to
this petition for certiorari. You graciously granted an extension of my deadline until October
14th.
Since that time, I have received notice that two organizations intend to file briefs in support of
Davis’ petition. In light of that additional material arriving soon, and because I am traveling this
weekend to San Francisco for a short visit to celebrate my mother’s 86th birthday, I would
respectfully ask for an additional 16 days, until Friday, October 30, 2020, to file a brief in
opposition.
Thank you in advance for considering this request.
Very truly yours,
James M. Whisman, WSBA # 19109
Senior Deputy Prosecuting Attorney
Attorney for Respondent
Today I sent a copy of this letter by electronic mail to David Koch, the attorney of record for the
Petitioner.
I certify under penalty of perjury of the laws of the state of Washington that the foregoing is true
and correct.
Name
9/24/2020
Done in Seattle, Washington

